,4Pp£N?iy a
Of TH6

OHI-reD SW£f DISTRICT 600RT

-i^rY\PA
of
ecoR\5>\
HiDDte j>isTKicr
pmym fet>eML H&eas corpus,

J)W'J10Vl

(JNfreJ) STA-tbS, Ho S’.* I °t-cv - oufa -1 GrW

V.
(Ao(x'Sj^oi6\)

Case 8:19-cv-01466-RAL-TGW Document 8 Filed 08/15/19 Page 1 of 5 Page ID 45

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

RASHEED LAMAR ROBINSON a/k/a
Richardo Lascelles Dwight Ashmeade,
Plaintiff,
v.

CASE NO. 8:19-cv-1466-T-26TGW

UNITED STATES OF AMERICA,
Defendant.

ORDER
After due and careful consideration of the procedural history of Plaintiff s two
criminal cases,1 together with the submissions of the parties,2 the Court concludes that
Plaintiffs timely filed Motion to Vacate filed pursuant to 28 U.S.C. § 2255 is due to be
denied based on the following analysis.3
Plaintiff pleaded guilty in case number 8:06-cr-366 to conspiracy to possess with
intent to distribute 1,000 kilograms or more of marijuana pursuant to a written plea
agreement. Prior to his plea, the Government filed an information alleging two prior

i

See case numbers 8:06-cr-366 and 8:08-cr-539.

2 The Court, after careful review, finds that Defendant’s citations to the record of
Plaintiffs underlying criminal cases are accurate so that the Court need not duplicate them in this
order.
3 The Court rejects Defendant’s argument that Plaintiffs motion is time-barred.

Case 8:19-cv-01466-RAL-TGW Document 8 Filed 08/15/19 Page 2 of 5 PagelD 46

felony drug convictions, thus subjecting Plaintiff to an enhanced minimum mandatory
sentence Of twenty (20) years of imprisonment under 21 U.S.C. § 851. Plaintiffs two
felony convictions consisted of possession with intent to distribute more than five (5)
pounds of marijuana in Henrico County, Virginia, and possession of marijuana for sale in
San Diego County, California. These convictions qualified him as a career offender
pursuant to U.S.S.G. §4B 1.1, thus yielding an offense level of 37. After factoring in a
criminal history category of VI and a three-level downward adjustment for acceptance of
responsibility, Plaintiffs advisory guideline range was fixed at 262 to 327 months.
In case number 8:08-cr-539, Plaintiff pleaded guilty to illegal reentry after
deportation Without a plea agreement, which subjected him to a maximum term of
imprisonment of twenty (20) years pursuant to 8 U.S.C. §§ 1326(a) and (b)(2). The Court
subsequently sentenced Plaintiff to 262 months in the drug case and 240 months in the .
illegal reentry case followed by periods Of supervised release, with those sentences
running concurrently. Plaintiffs direct appeal in the drug case was dismissed for failure
to pay the filing'fee, and he did not file a direct appeal in the illegal reentry case..
Plaintiff has now filed a motion to vacate in both cases challenging his career
offender designation based on the fact that a California superior court has reclassified his
marijuana conviction from a felony to a misdemeanor under the provisions of Proposition
64, an initiative approved by California voters allowing a court to redesignate a marijuana
felony conviction to a misdemeanor. See Cal: Health & Safety Code §11361.8. In light

-2-

Case 8:19-cv-01466-RAL-TGW Document 8 Filed 08/15/19 Page 3 of 5 PagelD 47

of that redesignation, Plaintiff contends he is no longer subject to a sentencing
enhancement under § 851 nor is he eligible for a career offender classification, thus
entitling him to be resentenced. The Court resoundingly rejects this contention.
Based on the cases cited by Defendant, as well as the Court’s own independent
research, every court to consider Plaintiff s argument has rejected it within the context of
Proposition 64. See United States v. Gilmore, 2018 WL 5787305, at *3 (N.D. Cal. 2018);
Mejia v. United States, 2018 WL 3629947, at *2 (S.D. Cal. 2018); RamOs v. United
States, 321 F. Supp. 3d 661, 666 (E.D. Va. 2018); United.States v. Ochoa-Garcia, 2017
WL 4532489, at *3 (D. Nev. 2017). As the Court in Ochoa-Garcia observed, “[a]ll the
relevant case law clearly supports the conclusion that a subsequent state-court
modification of a prior conviction cannot retroactively change that conviction’s effect
under the Sentencing Guidelines, unless the modification was due to (1) actual innocence,
or (2) legal errors in state-court proceedings.” 2018 WL.4532489, at *3 (citing U.S.S.G. §
4A1.2 n. 10). As in Ochoa-Garcia, “the classification of [Plaintiffs] conyiction[] under
Proposition 64 did not make him innocent of his crime[],and was not the result of legal
error; it merely downgraded the offense[] based on recent changes in the law.” Id.
(citation omitted).
Additionally, a host of courts have rejected arguments similar to Plaintiff s within
the context of California’s Proposition 47, which operates in the same fashion as
Proposition 64 with regard to reclassifying a felony to a misdemeanor but.with respect to

-3-

Case 8:19-cv-.01466-RAL-TGW Document 8 Filed 08/15/19 Page 4 of 5 PagelD 48

a different set of drug-related offenses.4 See, e.g., United States v.; Sanders, 909 F.3d
895, 900 (7th Cir. 2018) (joining “the Third'and.Ninth Circuits in holding that a defendant
who commits a federal drug offense after previously being.convicted of a state felony
drug offense is subject to § 841's recidivist’s enhancement even if that prior offense was '
reclassified as a misdemeanor pursuant to Proposition 47.”) (citing United States v.
London, 747 F. App’x 80, 85 (3rd Cir. 2018) and United States v. Diaz, 838 F.3d 968, 975
(9th Cir. 2016)); United States v. Stiger, 2019 WL 2248266, at *3 (N.D. Okla. 2019);
United States v. Mitchell, 2019 WL 2075933, at .*2 (W.D. Pa. 2019) (citing London,
Sanders, and Diaz); United States v. Munayco, 2018 WL 7050761, at *3-5 (N.D. Fla.
2018) (citing London, Sanders, and Diaz), report and recommendation approved by
district judge at docket 46 in case number 3:05-cr-3.
In light of this persuasive precedent, the Court concludes that the mere fact that
Plaintiffs California drug conviction was reclassified from a felony to a misdemeanor
based on Proposition 64 does not remove the stigma of his career offender designation.
Accordingly, his Motion to Vacate (Dkt. 1) is denied. The Clerk is directed to enter
judgment for Defendant and to close this case.
Additionally, the Court declines to issue a certificate of appealability because
Plaintiff has failed to make a substantial showing of the denial of a constitutional right as
required by 28 U.S.C. § 2253(c)(2). Cf United States v. Holyfield, 752 F. App’x 595

4 See Cal. Penal Code 1170.18.
-4-

Case 8:19-cv-01466-RAL-TGW Document 8 Filed 08/15/19 Page 5 of 5 PagelD 49

(10th Cir. 2018) (unpublished). Nor will the Court allow Plaintiff to proceed on appeal in
forma pauperis because such an appeal , would not be taken in good faith. See 28 U.S.C. §
1915(a)(3). Plaintiff shall pay the entire amount of the appellate filing fee pursuant to 28
U.S.C. § 1915(b).
DONE AND ORDERED at Tampa, Florida, on August 15, 2019.

s/Richard A. Lazzara
RICHARD A. LAZZARA
UNITED STATES DISTRICT JUDGE

COPIES FURNISHED TO:

Counsel of Record and Plaintiff, pro se

K

-5-

XPpeKDDc B
c®eR of th€ ohit&osiat^s District coort
MlKDLf IXSTR\CT Of .FCDRIM; TAmPA biv/uSioNi
PERV'^fr HcmoM fOR Retlfcf ffeM 3b£>trRfNT
p0R60w)t TO Feo.R. CIVF C,oC9j£He)j amd
DfCUMINO TtfE KSSU/VNCe Of A CGiTI RC/fTf Of

AfpeAfABlUTJ p.OgiM50fs) V. ON/tfD STATER No.
?: i r - cv -1 u- u fe - t -2k r &w ciePr 3, ;2o w)

Case 8:19-cv-01466-RAL-TGW Document 11 Filed 09/03/19 Page 1 of 2 PagelD 81

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
TAMPA DIVISION

RASHEED ROBINSON a/k/a
Richardo Cascelles Dwight Ashmeade,
Plaintiff,
CASE NO. 8:19-cv-1466-T-26TGW

v.
UNITED STATES OF AMERICA
Defendant.

ORDER
UPON DUE AND CAREFUL CONSIDERATION of the procedural history of
this case, it is ORDERED AND ADJUDGED as follows:
1)

Plaintiffs pro se Motion for Relief From Judgment Pursuant to Fed. R. Civ.

P. 60(b)(6) (Dkt. 10) is denied. Plaintiff offers no evidence that Defendant is guilty of
“misconduct” in allegedly failing to furnish him a copy of its response to Plaintiffs
Motion to Vacate. Defendant’s certificate of service on its response reflects that it was
forwarded to Plaintiff at the same address listed on his Motion to Vacate. Furthermore,
the clerk’s display receipt to Defendant’s response at docket 7 reflects that the clerk sent a
copy of the response to Plaintiff at the same address listed on Plaintiffs Motion to
Vacate, and there is no indication on the docket that the response was returned to the
clerk. Accordingly, Plaintiff has failed to overcome the rebuttable presumption that a

Case 8:19-cv-01466-RAL-TGW Document 11 Filed 09/03/19 Page 2 of 2 PagelD 82

properly mailed item was received by the recipient. See Watkins v. Plantation Police
Dep’t, 733 F. App’x 991, 994 (11th Cir. 2018) (unpublished).
2)

Plaintiffs pro se Motion to Alter or Amend Judgment Pursuant to Fed. R.

Civ. P. 59(e) (Dkt. 10) is denied. Plaintiff has not been deprived of due process of law
under the Fifth Amendment nor subjected to cruel and unusual punishment under the
Eighth Amendment because Plaintiffs California marijuana conviction was not vacated
or invalidated by the California court, it was reclassified. Although the Court recognizes
the result reached in Clay v. United States, 2018 WL 6333671 (C.D. Cal. 2018), the Court
disagrees with its reasoning and continues to adhere to the conclusions reached by the
legal precedent cited in its order denying Plaintiffs Motion to Vacate. See docket 8.
3)

The Court continues to decline to issue a certificate of appealability and to

allow Plaintiff to proceed on appeal in forma pauperis.
DONE AND ORDERED at Tampa, Florida, on September 3, 2019.

siRichard A. Lazzara
RICHARD A. LAZZARA
UNITED STATES DISTRICT JUDGE

COPIES FURNISHED TO:

Counsel of Record and Plaintiff, pro se

-2-

Append c
ORDeR DP TM6 OPIIT6D STATES COOKY Of ATP6APS
foR THg £66V6NTH CIPCOVT X>PHy(N(j ^OV RoBlNStiN
\l. 0MIT6& ST^res Wo. 19-i^kTi-c C;rw
No.' \ci~i?>LT?j c. (HiWM i+^oXo)

c'}

isrcro).'

)

V
Case: 19-13673

Date Filed: 01/15/2020

Page: 1 of 4

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13671-C; No. 19-13673-C
RASHEED LAMAR ROBINSON,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
Rasheed Robinson, a federal prisoner, is serving a total of262 months’ imprisonment after
he pled guilty in different criminal cases to illegal re-entry after removal, in violation of 8 U.S.C.
§ 1326(a) & (b)(2), and conspiracy to possess with intent to distribute 1,000 kilograms or more of
marijuana, in violation of 21 U.S.C. § 846. Robinson filed nearly identicalpro se 28 U.S.C. § 2255
motions to vacate, set aside, or correct his sentence, attacking both of his criminal convictions and
sentences, arguing that he was no longer a career offender and that he should be resentenced
accordingly. Robinson specified that his prior conviction for felony California possession of
marijuana no longer qualified as a predicate offense for the career-offender designation because
that conviction had been vacated and reduced to a misdemeanor after he had been sentenced.
The government filed identical responses in both cases, and the government attached a
certificate of service to the responses that stated that the government had mailed the responses to

\

1
Case: 19-13673

Date Filed: 01/15/2020

Page: 2 of 4

Robinson at the address listed on the district court dockets. The district court then denied the
§ 2255 motions with identical orders entered in both cases, concluding that, even though
Robinson’s drug conviction had been reclassified by the state from a felony to a misdemeanor,
such a reclassification did not change the career-offender designation.
Robinson subsequently filed identical combinedFed. R. Civ. P. 60(b)(6) and 59(e) motions
in both cases. Under Fed. R. Civ. P. 60(b)(6), he argued that the government did not properly
serve him with its responses to his § 2255 motions^ Under Fed. R. Civ. P. 59(e), Robinson asserted,
generally, that he no longer qualified as a career offender because his prior conviction for felony
California possession of marijuana had been refroactively changed.to a misdemeanor offense.
The district court entered identical orders

denying

Robinson’s combined

Rule 60(b)(6) and 59(e) motions. The district court denied Robinson a certificate of appealability
(“COA”) and leave to proceed on appeal in forma pauperis (“IFP”).
Robinson filed a notice of appeal in both cases and now moves this Court for a COA and
IFP status in both cases. He also filed a motion to consolidate his appellate cases, Case
No. 19-13671 and Case No. 19-13673.
As an initial matter, Robinson’s motion to consolidate his appellate cases is GRANTED
because both cases deafwith virtually idehticai'filings and-arguments-made by-Robinson,, the...
government, and the district court.
To obtain a COA, a movant must make “a substantial showing of the denial of a
constitutional right” 28 U.S.C. § 2253(c)(2).

The movant satisfies this requirement by

demonstrating that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong," or that the issues “deserve encouragement to proceed
further.” Slack v. McDaniel, 529 U.S. 473,484 (2000).

2

/

Case: 19-13673

Date Filed: 01/15/2020

Page: 3 of 4

Here, reasonable jurists would not debate the district court’s denial of Robinson’s § 2255
motions. First, the government filed its 21 U.S.C. § 851 notice, stating that it would seek an
enhanced sentence based on his prior convictions, in October 2008, and Robinson’s prior
California conviction occurred in June 1998. Consequently, the prior California conviction fell
outside the five-year statutory limitation period. See 21 U.S.C. § 851(e) (stating that a defendant
cannot challenge any prior convictions alleged in the § 851 notice that occurred more than five
years before the filing date of the notice). Second, Robinson’s prior California conviction had
“become final” before the government filed its notice, and, therefore, his sentence was properly
enhanced. See 21 U.S7C. § 841(a) (stating that a defendant’s sentence can be enhanced based on
prior convictions when those convictions “have become final”).
■ Furthermore, reasonable jurists would not debate that the district court did not err in
denying Robinson’s combined Rule 60(b)(6) and 59(e) motions. Robinson failed to rebut the
presumption that he received the government’s responses to his §2255 motions, as (1) the
government mailed the responses to his address listed on the district court dockets, (2) he only
stated that he never received the responses, and (3) the district court dockets do not show that the
responses were ever returned as undeliverable. See Konst v. Fla. East Coast Ry. Co., 71 F.3d850,
851 (11th Cir.*1996) (stating tiiat,-when an item was properlymailed to the addressee, it creates a
rebuttable presumption that the addressee received the item); Barnett v. Okeechobee Hosp., 283
F.3d 1232,1241-42 (11th Cir. 2002) (stating that a party must do more than simply allege that he
never received a mailed item in order to rebut the presumption). Additionally, Robinson did not
argue that there was new evidence. See Arthur v. King, 500 F.3d 1335, 1343 (11th Cir. 2007)
(stating that the only reasons for granting a Rule 59 motion are newly discovered evidence or

3

\

Case: 19-13673

Date Filed: 01/15/2020

Page: 4 of 4

manifest errors of law or fact). Moreover, the district court did not commit a manifest error of law
or feet in denying Robinson’s § 2255 motions for the reasons given above.
'

Accordingly, Robinson’s motions for a COA are DENIED. His motions for IFP status on

/

appeal are DENIED AS MOOT.X/
/s/ Kevin C. Newsom
UNTIED STATES CIRCUIT JUDGE

4

f

/
/

■i

Case: 19-13671

Date Filed: 03/04/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-13671-C
RASHEED LAMAR ROBINSON,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.

No. 19-13673-C
RASHEED LAMAR ROBINSON,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeals from the United States District Court
for the Middle District of Florida
Before: WILSON and NEWSOM, Circuit Judges.
BY THE COURT:
Rasheed Robinson has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c)
and 27-2, of this Court’s January 15,2020, order denying a certificate of appealability and leave
to proceed informa pauperis in his consolidated appeal of the district court’s denials of his pro se

Case: 19-13671

Date Filed: 03/04/2020

Page: 2 of 2

28 U.S.C. § 2255 motions to vacate, set aside, or correct his sentence and his pro se
Fed R. Civ. P. 59(e) and 60(b)(6) motions to alter or amend the judgments denying his § 2255
motions. Upon review, Robinson’s motion for reconsideration in this consolidated appeal is
DENIED because he has offered no new evidence or arguments of merit to warrant relief.

2

